U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


  INDIAN ACUTE DISTRESS DONATION
PROGRAM FOR SELECTED RESERVATIONS
   UNDER THE JURISDICTION OF THE
        BILLINGS AREA OFFICE,
      BUREAU OF INDIAN AFFAIRS

             REPORT NO. 98-I-704
              SEPTEMBER 1998
                                                                                  W-IN-BIA-002-98-R


                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240

                                                                              s@     3ome

                                     SURVEY REPORT
Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Robert J. Williams
           Assistant Inspector

Subject Survey Report on the Indian Acute Distress Donation Program for Selected
        Reservations Under the Jurisdiction of the Billings Area Office, Bureau of Indian
        mairs (No. 98-I-704)

                                      INTRODUCTION
This report presents the results of our survey of the Indian Acute Distress Donation Program
at the Blackfeet, Fort Peck, and Rocky Boy’s Indian Reservations, which are under the
jurisdiction of the Billings Area Office of the Bureau of Indian Affairs. The Program is
administered by the Bureau for the Blackfeet Reservation, the Assiniboine and Sioux Tribes
for the Fort Peck Reservation, and the Chippewa Cree Tribe for the Rocky Boy’s Indian
Reservation. The objective of the survey was to determine whether these Bureau and tribal
offices ensured that emergency feed grain provided through the Indian Acute Distress
Donation Program was distributed only to Indian tribal members who were eligible for
assistance. We performed the review based on a May 6, 1997, request from the Assistant
 Secretary for Indian Affairs.

BACKGROUND

Section 407 ofthe Agricultural Act of 1949 (7 U.K. 1427) authorized the U.S. Department
of Agriculture to provide free feed grain for the maintenance of Indian-owned livestock on
any reservation designated by the Secretary of Agriculture to be an acute distress area.’ Prior
to 1996, the Departments of Agriculture and the Interior jointly administered an emergency
feed program for Indians, known as the Indian Acute Distress Donation Program, under the
provisions of the May 6, 1978, interdepartmental Memorandum of Understanding Number 5
(“Agreement To Donate Feed Grain To Relieve Economic Distress or Disaster Conditions
Existing Among Indian Tribes”).


‘An acute distress area is defined as a location where the chronic economic distTess of needy members of an
Indian tribe is materially increased because of natural disaster. such as a flood. drought, or blizzard.
The Program was suspended by Section 17 1 of the Federal Agriculture Improvement and
Reform Act of 1996 (7 U.S.C. 7201). However, in response to severe weather conditions
during the winter of 1996-l 997, the Department of Agriculture provided emergency feed
assistance to six reservations in Montana using the guidelines of the memorandum of
understanding. Under the memorandum, the Bureau of Indian AfKairs was responsible for
ensuring that grain was distributed only to eligible Indians and for monitoring the Program.
The memorandum also specified the amount of feed grain provided per day for each type of
livestock, which, according to a Bureau official, was not enough grain to fully feed an animal
but was enough supplemental grain only to sustain the animal?

To address the confusion as to whether the Indian Acute Distress Donation Program had been
reinstated, the Assistant Secretary for Indian Affairs, in a May 14, 1997, letter to tribal
leaders, stated:

         The Federal Agriculture Improvement and Reform Act of 1996 suspended the
         Agricultural Act of 1949, which established the IADDP [Indian Acute
         Distress Donation Program]. It became confusing to a large number of people
         who thought that IADDP was being reinstituted when in actuality only the
         provisions for IADDP were being used to donate grain.

However, the Bureau of Indian Affairs referred to the emergency assistance provided during
the winter of 1996- 1997 as the Indian Acute Distress Donation Program. Therefore, for the
purposes of this report, we refer to the assistance provided during this period as the Indian
Acute Distress Donation Program.

The Program was administered by Blackfeet Agency officials at the Blackfeet Reservation,
by the Chippewa Cree Tribe at the Rocky Boy’s Reservation under a compact3 with the
Bureau, and by the Assiniboine and Sioux Tribes at the Fort Peck Reservation under a
contract” with the Bureau. During the winter of 1996- 1997, grain with an estimated value
of $571,000 was provided to 2 12 Program participants at the Blackfeet (17 l), Fort Peck (29)
and Rocky Boy’s (12) Reservations in Montana.

The Department of Agriculture established a replacement program (American Indian
Livestock Feed Program) for the suspended Indian Acute Distress Donation Program but as
of the time of our review had not developed final regulations for administering the Livestock


‘Memorandum of Understanding Number 5 specifies 4 pounds per day of grain for each cow, bull, or steer;
2 pounds per day for each heifer: 1.3 3 pounds per day for each calf; .8 pounds per day for each sheep or goat:
and .6 pounds per day for each lamb or kid.

‘The C hippewa Cree Tribe has assumed responsibility for performing functions previously performed by the
Bureau at the Rocky Boy’s Reservation under a compact between the Secretary and the Tribe pursuant to the
Indian Self-Determination and Education Assistance Act (Public Law 93-638, as amended).

“The Assiniboine and Sioux Tribes administer the Programs at the Fort Peck Reservation under a contract
awarded by the Bureau pursuant to Public Law 93-638.

                                                       2
Feed Program. However, according to the Department’s draft interim rules for the Livestock
Feed Program, the Department, through its Commodity Credit Corporation, will contract
directly with tribal governments to provide emergency livestock assistance. Thus, the Bureau
of Indian Affairs will not be involved administratively or operationally with the proposed
program.

SCOPE OF SURVEY

The survey was conducted from May 4 through July 22, 1998, at the Billings Area Office in
Billings, Montana; the Blackfeet Agency Office in Browning, Montana; the Rocky Boy’s
Indian Reservation in Box Elder, Montana; the Fort Peck Indian Reservation in Poplar,
Montana; and eight of the nine grain elevators used during the Program. To accomplish our
objective, we reviewed applicable laws and regulations, including Memorandum of
Understanding Number 5; Bureau policies and procedures, including Billings Area Office
instructions; and individual applications for assistance. We also interviewed Bureau and tribal
officials to determine the process used to establish eligibility and verified the distribution of
grain to Program participants by interviewing grain elevator managers and administrative
personnel and by reviewing the grain elevator weight tickets.

We conducted the survey in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our audit, we reviewed the Department’s Accountability Report
for fiscal year 1997, which includes information required by the Federal Managers’ Financial
Integrity Act of 1982, and the Bureau’s annual assurance statement and determined that there
were no reported control weaknesses related to the audit objective.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports on the Indian Acute Distress Donation Program.

                             RESULTS OF SURVEY

We found that the Bureau of Indian Affairs Blackfeet Agency, the Chippewa Cree Tribe of
the Rocky Boy’s Reservation, and the Assiniboine and Sioux Tribes at the Fort Peck Indian
Reservation did not ensure that emergency feed grains were distributed only to eligible
applicants in accordance with the requirements of the 1978 Memorandum of Understanding
Number 5 and applicable Billings Area Office instructions. Under the terms of the
memorandum of understanding, the Bureau is to provide feed grain to Indian tribal members
who do not have sufficient means to purchase the feed necessary to maintain the livestock
used as the principal source of food and income for the members and their families. In
addition, the memorandum and Area Ofice instructions defined the amount of grain that
eligible participants could receive. However, officials at the Bureau’s Headquarters did not
provide supplemental instructions, and guidance from the Billings Area Office did not define

                                               3
the term “principal source of income” in sufficient detail to enable Agency and tribal officials
to determine eligibility. In addition, Agency and tribal officials did not provide the monitoring
necessary to ensure compliance with the Program. As a result, 232,735 pounds of grain,
valued at $12,400, was provided to 16 Program participants who did not have any
agricultural income, and 336,000 pounds of grain, valued at $18,000, was provided to an
additional 14 Program participants who did not pick up grain until the last 30 days of the
Program and consequently received grain in excess of their entitlement.

Supplemental Guidance

Neither Bureau Headquarters nor Area Office officials issued supplemental guidance to the
Agency or tribal officials adequately defining “principal source of income,” which resulted in
inconsistent determinations of eligibility. According to the memorandum of understanding,
a tribal member eligible for the Program is defined as one who is without sufficient cash or
credit to purchase feed to maintain his or her subsistence livestock after allowance for living
expenses. The memorandum defines subsistence livestock as those animals that provide the
“principal source of food and income” for the member and family but does not provide any
guidelines quantifying “principal source of income. ” Agency officials at the Blackfeet
Reservation allowed Program applicants to participate in the Program without consideration
of how much of the tribal member’s income was derived from agricultural sources (livestock,
hay, and grain). For example, we found that 16 participants at the Blackfeet Reservation
were declared eligible and received 232,735 pounds of grain, valued at $12,400, even though
the 16 participants reported that they had no income from agricultural sources, while at the
Rocky Boy’s Reservation, 5 applicants who declared livestock income’ ranging from 12 to
46 percent of their total income were determined to be ineligible because an official of the
Chippewa Cree Tribe determined that the applicants’ livestock income was not their principal
source of income.

Program Monitoring

Blackfeet Agency and tribal officials did not monitor the Program to ensure that grain
deliveries to participants were limited to amounts authorized under the memorandum of
understanding and additional Billings Area Office instructions. Under these criteria, the
Bureau is to make feed grain available to participating Indians based on each participant’s
maximum daily allowance multiplied by the number of days remaining from the date of pickup
to the end of the Program for the designated area! For example, a participant picking up
grain for the first time 30 days before the end of the Program would be entitled to only a 30-
day allotment of grain, and a participant picking up grain for the first time on the last day of
the Program would be entitled to a l-day allotment of grain. However, the Bureau did not
inform either the participants or the grain elevator operators of this requirement. As a result,


‘At the Rocky Boy’s Reservation, livestock income, rather than total agriculture income, was considered in
determining Program eligibility.

“The length of the Program varied at the three locations because of differences in application. approval. and
Program ending dates.

                                                     4
at least 14 participants at the three locations visited picked up 336,000 pounds of grain,
valued at $18,000, in excess of amounts allowable under the Program. For example:

        - At the Blackfeet Reservation, one participant was awarded 150,738 pounds of
grain, valued at $8,008, for a 11 l-day period. He picked up his entire allotment on May 30,
1997, 1 day before the Program ended. Based on the criteria, the participant was entitled to
only a 2-day allotment, or 2,7 16 pounds of grain, valued at $144. Thus, the participant
received 148,022 pounds of grain, valued at $7,864, for which he was not eligible.

        - At the Fort Peck Reservation, one participant was awarded 27,190 pounds of grain,
valued at $1,473, for a 66-day period. His first grain pickup was on April 15, 1997, which
entitled him to 16 days of grain until the April 30, 1997, Program ending date. Thus, the
participant received $1, 115 worth of grain for which he was not eligible.

        - At the Rocky Boy’s Reservation, one participant was awarded 2 1,125 pounds of
grain, valued at $1,13 1, for a 67-day period. He picked up his entire allotment on April 15,
1997, 30 days before the May 14, 1997, Program end date. Based on the criteria, the
participant was entitled to only 9,459 pounds of grain, valued at $506. Thus, the participant
received 11,666 pounds of grain, valued at $625, for which he was not eligible.

Conclusion

The American Indian Livestock Feed Program, which will replace the Indian Acute Distress
Donation Program, will be administered directly by tribal governments through the
Department of Agriculture’s Commodity Credit Corporation and will not involve the Bureau
of Indian Affairs. Accordingly, we are not making recommendations to correct the
deficiencies in the Program criteria we reviewed. In addition, we are not recommending that
the Bureau recover the value of the excess grain delivered to participants because the
participants were not informed that they were entitled to obtain grain only for the period from
the date of delivery to the date of the end of the Program, and the Bureau and the tribes
informed applicants who had no agricultural income that they were eligible for the grain.

On August 13, 1998, we discussed a preliminary draft of this report with Billings Area
Office officials, who generally agreed with the report. Their comments were considered and
incorporated into this report as appropriate.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau and tribal personnel in the conduct of our survey.



                                               5
               ILLEGAL OR WASTEFUL ACTMTIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:



                    Within the Continental United States

U.S. Department of the Interior                      Our 24-hour
Office of Inspector General                          Telephone HOTLINE
1849 C Street, N.W.                                  l-800-424-508 1 or
Mail Stop 5341                                       (202) 208-5300
Washington, D. C. 20240


                                                     TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996



                     Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                       (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

 U.S. Department of the Interior                        (67 1) 647-605   1
 Office of Inspector General
 North Pacific Region
 415 Chalan San Antonio
 Baltej Pavilion, Suite 306
 Tamuning , Guam 969 11
Toll Free Numbers:
 1-800-424-5081
 -.l’DD l-800-354-0996

FTSKommerciai Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C StreeG N.W.
Mail Stop 5341
Washineton. D.C. 20240
